DEPARTMENT OF HOMELAND SECURITY
    Office of Inspector General



  The State of Ohio’s Management of 

   State Homeland Security Grants 

           Awarded During 

   Fiscal Years 2002 through 2004 





OIG-08-28                  February 2008
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                      February 28, 2008

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

The attached report presents the results of the audit of the State of Ohio’s management of State
Homeland Security Grants awarded during FYs 2002 through 2004. We contracted with the
independent public accounting firm of Foxx & Company to perform the audit. The contract required
that Foxx & Company perform its audit according to generally accepted government auditing
standards and guidance from the Office of Management and Budget and the Government
Accountability Office. Foxx & Company’s report identified 8 reportable conditions where State
management of the grant funds could be improved, resulting in 21 recommendations addressed to
the Administrator, Federal Emergency Management Agency. Foxx & Company is responsible for
the attached auditor’s report dated January 25, 2008, and the conclusions expressed in the report.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                              Richard L. Skinner 

                                              Inspector General        

January 25, 2008


Mr. James L. Taylor
Deputy Inspector General
Office of Inspector General
Department of Homeland Security
245 Murray Drive, S.W. Bldg. 410
Washington, D.C. 20528

Dear Mr. Taylor:

Foxx & Company performed an audit of the State of Ohio’s management of the Department of
Homeland Security, Office of Grants and Training, State Homeland Security Grants for FYs 2002,
2003 and 2004. The audit was performed in accordance with our Task Order No. TPD ARC-06-K-
00218 dated May 18, 2006.

This report presents the results of the audit and includes recommendations to help improve the
State’s management of the audited State Homeland Security Grant Programs. These programs are
commonly referred to as first responder grant programs.

Our audit was conducted in accordance with applicable Government Auditing Standards, June 2003
revision. The audit was a performance audit as defined by Chapter 2 of the Standards and it
included a review and report of program activities with a compliance element. Although the audit
report comments on costs claimed by the State, we did not perform a financial audit, the purpose of
which would be to render an opinion on the agency’s financial statements or the funds claimed in the
Financial Status Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. If you have any questions, or if we can
be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations 



  Executive Summary .................................................................................................................1 


  Background ..............................................................................................................................2


  Results of Audit ......................................................................................................................6 


       Needs Assessment Results Not Used ..................................................................................7 

       Measurable Goals and Objectives Not Established ..........................................................11 

       Adequate Financial Controls Not Established ..................................................................15 

       Subgrantee Performance Not Adequately Monitored .......................................................18 

       Federal Procurement Requirements Not Followed ...........................................................22 

       Personal Property Controls and Accountability Not Maintained .....................................25 

       Vehicles Not Used for Intended Purposes ........................................................................27 

       Grant Funds Inappropriately Commingled .......................................................................30 


  Appendices

       Appendix A:           Objectives, Scope, and Methodology .......................................................33 

       Appendix B:           Organization Chart ....................................................................................35 

       Appendix C:           State of Ohio Comments............................................................................36 

       Appendix D:           Report Distribution ....................................................................................42 


  Abbreviations

       DHS              Department of Homeland Security 

       FEMA             Federal Emergency Management Agency 

       FY               Fiscal Year         

       OIG              Office of Inspector General 

Executive Summary

             Foxx & Company completed an audit of Department of Homeland Security
             State Homeland Security Grants awarded to the State of Ohio. The objectives
             of the audit were to determine whether the State Administrative Agency
             (1) effectively and efficiently implemented the first responder grant programs,
             (2) achieved the goals of the programs, and (3) spent funds in accordance with
             grant requirements. The audit included a review of approximately
             $142 million awarded to the State of Ohio from the Fiscal Year 2002 State
             Domestic Preparedness Program, from Parts I and II of the Fiscal Year 2003
             State Homeland Security Grant Program, and the Fiscal Year 2004 Homeland
             Security Grant Program.

             Overall, the State Administrative Agency did an adequate job of administering
             program requirements, distributing grant funds, ensuring that all of the
             available funds were used, and coordinating homeland security efforts among
             State agencies and departments. However, the State Administrative Agency
             did not have a documented analysis of how effective its efforts had been in
             preparing first responders for terrorist incidents. As a result, the State
             Administrative Agency did not have a valid basis for justifying future first
             responder grant funds and management decisions. Problems were identified
             with grant funds use, measurable goals and objectives, grant disbursements,
             subgrantee monitoring, procurement procedures, personal property controls,
             vehicle use, and commingling of grant funds.

             The body of the report provides detailed discussions and recommendations for
             each of the findings. The recommendations call for the Administrator,
             Federal Emergency Management Agency, to require the Ohio Emergency
             Management Agency to: ensure that grant funds are used to fill first
             responder equipment shortfalls in accordance with the State’s needs
             assessment, measure and report subgrantee progress in achieving goals and
             objectives, establish effective financial controls over grant disbursements, and
             implement an effective subgrantee monitoring program.

             Federal Emergency Management Agency and Ohio State officials provided
             verbal concurrences with the recommendations contained in this report.
             Additionally, the State officials provided written comments on the
             recommendations dated January 17, 2008. The Administrator, Federal
             Emergency Management Agency, will provide corrective actions and a plan to
             implement those corrective actions within 90 days of the date of this report.




                The State of Ohio’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2002 through 2004 


                                             Page 1

Background

             The Homeland Security Grant Program is a federal assistance grant program
             administered by the U.S. Department of Homeland Security (DHS), Grant
             Programs Directorate within the Federal Emergency Management Agency
             (FEMA). The current Grant Programs Directorate, hereafter referred to as
             FEMA, began with the Office of Domestic Preparedness, which was
             transferred from the Department of Justice to DHS in March 2003. The
             Office of Domestic Preparedness was subsequently consolidated into the
             Office of State and Local Government Coordination and Preparedness which,
             in part, became the Office of Grants and Training, and which subsequently
             became part of the FEMA.

             Although the grant program was transferred to DHS, applicable Department
             of Justice grant regulations and legacy systems still were used as needed to
             administer the program. For example, the State Administrative Agency
             entered payment data into the Office of Justice Programs’ Phone Activated
             Paperless Request System, which was a drawdown payment system for grant
             funds.

             DHS is responsible for enhancing the capabilities of state and local
             jurisdictions to respond to and mitigate the consequences of incidents of
             domestic terrorism. FEMA provides grant funds to help public safety
             personnel (e.g., first responders) acquire specialized training, perform
             exercises, and purchase equipment necessary to safely respond to and manage
             terrorist incidents involving chemical, biological, radiological, nuclear, or
             explosive weapons, including weapons of mass destruction. First responders
             include firefighters, police, paramedics, and others. The grants are
             collectively referred to as first responder grants. These types of grants within
             the Homeland Security Grant Program provide federal funding to help states
             and local agencies enhance their capabilities to prevent, deter, respond to, and
             recover from threats or acts of terrorism.

        First Responder Grant Programs
             Fiscal Year (FY) 2002 State Domestic Preparedness Program: This
             program provided financial assistance to each of the states, United States
             Territories, the District of Columbia, and the Commonwealth of Puerto Rico.
             DHS provided financial assistance for (1) the purchase of specialized
             equipment to enhance the capability of state and local agencies to respond to
             incidents of terrorism involving the use of weapons of mass destruction, (2) the
             protection of critical infrastructure, (3) the design, development, conduct, and
             evaluation of weapons of mass destruction exercises, and, (4) the

                The State of Ohio’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2002 through 2004 


                                             Page 2

reimbursement for administrative costs associated with the implementation of
the statewide domestic preparedness strategies.

FY 2003 State Homeland Security Grant Program -- Part I: This program
provided financial assistance for (1) the purchase of specialized equipment to
enhance the capability of state and local agencies to prevent and respond to
incidents of terrorism involving the use of chemical, biological, radiological,
nuclear, or explosive weapons, (2) the protection of critical infrastructure and
prevention of terrorist incidents, (3) the design, development, conduct, and
evaluation of chemical, biological, radioactive, nuclear, or explosive weapons
exercises, (4) the design, development, and conduct of state chemical,
biological, radioactive, nuclear, or explosive weapons training programs, and,
(5) the updating and implementing of each state’s homeland security strategy.

FY 2003 State Homeland Security Grant Program – Part II: This program
supplemented funding available through FY 2003 for the State Homeland
Security Grant Program to enhance first responder preparedness. State
Homeland Security Grant Program Part II funds also were available to mitigate
the costs of enhanced security at critical infrastructure facilities during the
period of hostilities with Iraq and future periods of heightened threat.

FY 2004 Homeland Security Grant Program: This program integrated the
Homeland Security Grant Program, the Law Enforcement Terrorism
Prevention Program, and the Citizen Corps Program into a single grant
program. Funding from this combined program was to enhance the ability of
state and local agencies to prevent, deter, respond to, and recover from threats
and incidents of terrorism.

The State of Ohio received approximately $142 million from the FYs 2002,
2003, and 2004 grant programs. The funded activities and amounts for each
program are shown in the following table.




   The State of Ohio’s Management of State Homeland Security Grants

            Awarded During Fiscal Years 2002 through 2004 


                                Page 3

                                             Table 1
                               Ohio Homeland Security Grants Awards
                                      FYs 2002 through 2004
                                                  Grant Program
                                                     ('000s)

                                                 2003        2003
                                                 State       State        2004
                                2002 State
                                               Homeland    Homeland     Homeland
            Funded               Domestic
                                                Security    Security     Security     Totals
            Activity           Preparedness
                                                 Grant       Grant        Grant
                                 Program
                                               Program,    Program,      Program
                                                 Part I      Part II

     Equipment                      $9,458       $12,287          N/A          N/A    $21, 745
     Exercise                         $439        $3,072          N/A          N/A      $3,511
     Training                          N/A         $922           N/A          N/A       $922
     Planning and
                                       N/A        $1,229          N/A          N/A      $1,229
     Administration
     First Responder
                                       N/A          N/A      $40,194           N/A     $40,194
     Preparedness
     Critical Infrastructure
                                       N/A          N/A       $6,184           N/A      $6,184
     Protection
     State Homeland
                                       N/A          N/A           N/A       $51,791    $51,791
     Security
     Law Enforcement
                                       N/A          N/A           N/A       $15,368    $15,368
     Terrorism Prevention
     Citizen Corps                    N/A           N/A         N/A          $1,076     $1,076
           TOTALS                   $9,897       $17,510     $46,378        $68,235   $142,020


Ohio Emergency Management Agency
    Ohio’s Governor designated the Ohio Emergency Management Agency,
    which is organizationally under the Ohio Department of Public Safety, to be
    the State Administrative Agency for the Homeland Security Grant Programs.
    The State Administrative Agency was responsible for:

        •	 Assessing potential terrorist threats, risks, and vulnerabilities in the
           State of Ohio and developing the Statewide Homeland Security
           Strategies,

        •	 Applying to DHS for first responder grants and using the grant funds
           in accordance with DHS guidelines, federal regulations, and the
           Statewide Homeland Security Strategies,




        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                     Page 4

   •	 Awarding subgrants to local jurisdictions and State agencies and
      ensuring that subgrantees met State and federal administrative
      requirements, and,

   •	 Reporting to DHS on the financial and programmatic progress being
      made by the State Administrative Agency in accomplishing its
      Statewide Homeland Security Strategies.

During most of the FY 2002 through 2004 grant programs, the Ohio
Emergency Management Agency was the coordinating agency for the State of
Ohio on all Homeland Security matters. In September 2003, the State created
a Division of Homeland Security to address new threats and challenges in the
wake of the September 11, 2001 attacks. This Division since has taken over
most responsibilities for homeland security strategic planning. It currently
shares responsibility and collaborates with the Ohio Emergency Management
Agency on many homeland security matters. However, the Ohio Emergency
Management Agency has remained the State Administrative Agency for the
first responder grant programs. It still is responsible for administering the
grant programs and overseeing how grant funds are used throughout the State.




   The State of Ohio’s Management of State Homeland Security Grants

            Awarded During Fiscal Years 2002 through 2004 


                                Page 5

Results of Audit
               DHS awarded a total of approximately $142 million to the State of Ohio from
               the FY 2002 State Domestic Preparedness Program, from the FY 2003 Parts I
               and II State Homeland Security Grant Program, and from the FY 2004
               Homeland Security Grant Program. The State Administrative Agency
               awarded subgrants totaling about $117.1 million to the State’s 88 counties and
               local organizations. The counties used the grant funds primarily to purchase
               equipment for individual first responders, including law enforcement, fire,
               medical emergency, and other personnel.

               Foxx & Company completed an audit of the State of Ohio’s management of
               the DHS FY 2002, FY 2003, and FY 2004 first responder grants. The
               objectives of the audit were to determine whether the State Administrative
               Agency (1) effectively and efficiently implemented the first responder grant
               programs, (2) achieved the goals of the programs, and (3) spent funds in
               accordance with grant requirements. The goal of the audit was to identify
               problems and solutions that would help the State of Ohio prepare for and
               respond to terrorist attacks. Nine “researchable questions,” provided by the
               DHS Office of Inspector General (OIG), provided the framework for the
               audit. The “researchable questions” were related to the State Administrative
               Agency’s planning, management, and results evaluations of grant activities.
               Appendix A provides additional details on the objectives, scope, and
               methodology of this audit, including the nine researchable questions.

               Overall, the State Administrative Agency did an adequate job of administering
               certain program requirements, distributing grant funds, and ensuring that all of
               the available funds were used. It also should be commended for its
               coordination of homeland security efforts among State agencies and
               departments with statewide first responder responsibilities. State officials and
               others said that the degree of cooperation among the State agencies and
               departments was substantially greater than at any time in their past memories.
               However, as demonstrated by the findings in this report, the State
               Administrative Agency did not have a documented analysis of how effective
               its efforts had been in preparing first responders for terrorist incidents. As a
               result, the State Administrative Agency did not have a valid basis for
               justifying future first responder grant funds and management decisions. The
               Agency did not ensure that:

                   •	 Grant funds were used for assessed needs and established priorities,

                   •	 Measurable goals and objectives were established and progress was
                      tracked,


                   The State of Ohio’s Management of State Homeland Security Grants

                            Awarded During Fiscal Years 2002 through 2004 


                                                Page 6

              •	 Grant disbursements were accurately tracked and reported using an
                 adequate financial system,

              •	 An effective subgrantee monitoring program was implemented,

              •	 Subgrantees followed federal non-competitive procurement
                 regulations,

              •	 Local jurisdictions maintained effective controls and accountability
                 systems for procured personal property,

              •	 Subgrantees used vehicles purchased with grant funds for approved
                 purposes, and

              •	 Subgrantee accounting systems did not commingle grant funds.

           We visited 6 counties, 1 State agency, 1 State association, and 21 first
           responders (law enforcement, fire, emergency services and other entities).
           The State Administrative Agency awarded approximately $24.8 million to the
           entities we visited. Of this amount, the six counties received about
           $15 million from the FYs 2002, 2003, and 2004 first responder grant
           programs.

           Although this audit included a review of some of the costs claimed with grant
           funds, we did not perform a financial audit of those costs. Accordingly, we do
           not express an opinion on the State of Ohio’s financial statements or the funds
           claimed in the Financial Status Reports submitted to FEMA.

           Our findings warrant attention at local, State, and federal levels. Managers at
           all levels need to provide stronger leadership, more specific direction to local
           jurisdiction personnel who are being relied upon to be effective first
           responders, and improved evaluations of program results against measurable
           goals and objectives.

Needs Assessment Results Not Used
           The State Administrative Agency did not use the results of its Needs
           Assessments as a basis for allocating grant funds to its counties. Also, the
           Agency did not determine if its counties were using grant funds to fill
           equipment shortfalls or “gaps” identified by the assessments. In addition, the
           Agency did not establish priorities for the types and quantities of equipment
           counties should buy with grant funds. Accordingly, the Agency had no
           assurance that local jurisdictions used grant funds to meet the most critical
           equipment needs of first responders or effectively directed grant funds to
           mitigate the State’s most critical terrorism threats and vulnerabilities.

              The State of Ohio’s Management of State Homeland Security Grants

                       Awarded During Fiscal Years 2002 through 2004 


                                           Page 7

DHS Program Guidelines for the FY 2002 grant program required that the
receipt of first responder grant funds would be contingent upon the
submission and approval of a Statewide Domestic Preparedness Strategy. The
guidelines stated that the Strategy must be directly linked to the results of a
Needs Assessment in recognition of the threat of terrorist attacks using
weapons of mass destruction. The Needs Assessment process, which began in
FY 1999, required the State Administrative Agency and each of its local
jurisdictions (Ohio’s 88 counties) to prepare a jurisdictional risk assessment
and determine the requirements for equipment, first responder training, and
other resources.

Based on the results of the Needs Assessment, DHS required the State
Administrative Agency to develop a Three-Year Statewide Strategy that
would identify its current capabilities and provide a roadmap for fulfilling any
gaps in service or unmet resource needs. As part of the Strategy, the State
Administrative Agency was to (1) identify and prioritize all jurisdictions that
would benefit from the first responder grant programs, (2) establish applicable
goals and objectives that were directly linked to the response shortfalls
identified in the Needs Assessment, and (3) set priorities for implementing the
objectives and allocating resources. DHS initially required that the Three-
Year Strategy cover FYs 1999, 2000, and 2001, but also linked the award of
FY 2002 and FY 2003 grants to this Strategy.

The State of Ohio’s participation in the FY 2004 first responder grant program
was contingent on its completion of a Needs Assessment and Strategy update
in 2003. This update process had many of the same characteristics and
requirements as the initial effort. According to FEMA, this was done to
provide State and local jurisdictions an opportunity to update their assessment
data to reflect post-September 11, 2001 realities.

Allocations Not Based on Identified Vulnerabilities and Shortfalls

The State Administrative Agency’s Needs Assessments identified statewide
vulnerabilities and related equipment shortfalls needed to respond to terrorist
attacks. The Needs Assessment, which was comprehensive and time
consuming, resulted in equipment shortfall determinations totaling
$166 million in 2001 and $6.6 billion in 2003. According to State
Administrative Agency officials involved in the Needs Assessment process,
the huge equipment shortfalls occurred for a number of reasons, including:

   •	 The counties were not given any standards on which to base their
      equipment needs and shortfalls,



   The State of Ohio’s Management of State Homeland Security Grants

            Awarded During Fiscal Years 2002 through 2004 


                                Page 8

         •	 The counties wanted to be competitive for subgrant awards, so they
            tended to establish “wish lists” rather than prioritized needs, and

         •	 The counties included equipment needs for capabilities that might
            have been more applicable to a regional response capability (e.g.,
            search and rescue teams or bomb teams).

     Agency officials considered the results of the needs assessment processes to
     be unrealistic and decided not to use the results as a basis for allocating grant
     funds to the counties. During the FY 2002 through 2004 grant programs, the
     State Administrative Agency gave each county a subgrant that included a base
     (or flat) amount plus an additional amount based upon county population.
     According to State officials, the rationale was that population correlated to
     risk, i.e., the higher the population, the higher the risk. Once the State
     Administrative Agency awarded subgrants to the counties, it collected some
     statewide statistics on the types of equipment being purchased by the counties.
     However, it did not attempt to determine if individual counties were using
     grant funds to meet their identified risks and vulnerabilities to terrorist attacks,
     or to satisfy the equipment shortfalls each county identified during the Needs
     Assessment processes.

     Priorities Not Established For Equipment

     The State Administrative Agency’s initial Three-Year Domestic Preparedness
     Strategy stated that equipment for first responders was the primary emphasis
     of the grant programs. However, even though 83 % of the FY 2002 through
     FY 2004 grant funds was spent on equipment, the State Administrative
     Agency did not establish priorities for the type or quantities of equipment the
     counties should purchase.

     According to State Administrative Agency officials, priorities were not
     established and the counties were not directed to purchase certain equipment
     with grant funds. Agency officials believed that the counties were in a better
     position to determine their needs. They also said that local jurisdictions were
     accustomed to making their own determinations on such matters because Ohio
     is a “home rule” state. The only State Administrative Agency requirement
     was that the equipment be consistent with the FEMA approved equipment list.

Conclusions

     The State and counties expended a significant amount of time and resources
     on two Needs Assessments that did not provide realistic assessments of
     equipment needs based on the potential threats and risks of terrorist attacks.
     The State Administrative Agency did not use the results of the assessments to
     allocate grant funds to the 88 counties. Instead, the Agency relied on

        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                     Page 9

    population demographics for allocation purposes and assumed that risk was
    commensurate with population size. As a result, the Agency has no assurance
    that grant funds were distributed to the counties that faced the State’s most
    critical threats or risks of terrorism involving weapons of mass destruction.
    The State Administrative Agency’s Domestic Preparedness Strategy did not
    include priorities for the type of equipment the counties should purchase.
    Accordingly, the Agency had no assurance that county purchases
    appropriately addressed the most critical first responder needs or State
    priorities.

Recommendations
    We recommend that the Administrator, Federal Emergency Management
    Agency, require the Ohio Emergency Management Agency to:

       1.	 Link future homeland security subgrant awards to the State’s most
           critical threats and risks,

       2.	 Establish Statewide equipment standards and priorities for meeting
           first responders’ most critical needs, and

       3.	 Ensure that the counties use grant funds towards alleviating equipment
           shortfalls between the newly established standards and priorities, as
           compared with current capabilities of each county.

Management Comments
    We received verbal comments on the recommendations from FEMA officials.
    The officials concurred with the first and second recommendations and non-
    concurred with the third recommendation, as presented in the draft report.
    The officials said the language in the third recommendation, as presented, was
    too specific and far reaching as to detail exactly where the grantee should be
    telling its subgrantees to use the grant funds. Further, the officials said that
    the grantee spending should be based on whatever parameters the State
    Administrative Agency sets as a grading point.

    The State Administrative Agency officials concurred with the
    recommendations. In their written comments, State officials said that in 2006
    the State Administrative Agency conducted a comprehensive needs
    assessment, identified current capabilities and gaps, and developed an
    enhancement plan that included investment justifications. Counties were
    required to focus grant fund expenditures on the state’s highest priority,
    interoperable communications, unless the counties could justify using the
    funds for other purposes. The officials noted that new investment
    justifications were developed in 2007. The officials also anticipated that new

       The State of Ohio’s Management of State Homeland Security Grants

                Awarded During Fiscal Years 2002 through 2004 


                                   Page 10

          ones would be developed in 2008. The written comments stated that the State
          Administrative Agency would continue to identify equipment standards and
          focus grant funding on priorities. In addition, the State Administrative
          Agency would encourage subgrantees to adhere to the standards when using
          grant funds to purchase equipment.

     Auditor’s Analysis

          If effectively implemented, the State Administrative Agency’s actual and
          planned actions would be sufficient to satisfy the intent of the first two
          recommendations. With respect to the third recommendation, we continue to
          believe that the counties should use the newly established standards and
          priorities when deciding how to meet the most critical needs of first
          responders. We also believe that the State Administrative Agency is
          responsible for ensuring that the grant funds are effectively used to meet the
          most critical needs.

          In recognition of the comments received from the FEMA officials, we have
          modified the third recommendation as presented in the draft report. As
          modified, the recommendation states that FEMA should require the State
          Administrative Agency to ensure that the grant funds are used towards
          alleviating equipment shortfalls between the newly established standards and
          priorities, as compared with current capabilities of each county.

          The Administrator, Federal Emergency Management Agency, needs to
          provide within 90 days corrective actions for the recommendations and a plan
          to implement the actions.

Measurable Goals and Objectives Not Established
          The State Administrative Agency’s established list of statewide goals and
          objectives did not provide an adequate basis for measuring improvements in
          the capability of local first responders to respond to a terrorist attack involving
          weapons of mass destruction. The Agency never developed measurable goals
          and objectives or a systematic method to collect performance-related data. As
          a result, the Agency did not have a documented evaluation of the effect that
          grant funds had on the capability of first responders.

          Code of Federal Regulations Title 44 § 13.40, Monitoring and reporting
          program performance, requires that grantees assure that performance goals
          are achieved. This section also requires that grantees adhere to these same
          standards in prescribing performance and reporting for subgrantees. The
          Program Guidance for the FY 2002 grant program required applicants to
          provide an overview of the State’s implementation plan for the Statewide

             The State of Ohio’s Management of State Homeland Security Grants

                      Awarded During Fiscal Years 2002 through 2004 


                                         Page 11

Domestic Preparedness Strategy. The plan was to include measurable
program objectives for equipment, exercises, and administrative allocations; a
list of corresponding activities; and a description of the specific evaluation
methods to be used. Examples of acceptable measures for the components of
the program were provided in the guidance. The FY 2003 and FY 2004
Program Guidance packages required the applicants to report the progress
made on achieving the State’s overall goals and objectives as identified in the
state homeland security strategy.

In 1999, DHS issued guidance to grantees for conducting risk, capability, and
needs assessments to help prioritize the expenditure of grant funds within the
State. Based on these assessments, grantees and subgrantees were required to
identify shortfalls or “gaps” in equipment, training, and exercises and prepare
a “Three-Year Statewide Domestic Preparedness Strategy” to remedy the
gaps. To measure progress, the guidance required grantees to establish a
formal plan to evaluate the effectiveness of the Strategy in improving the
State’s ability to respond to terrorism incidents involving weapons of mass
destruction. A similar Needs Assessment process was mandated by DHS in
2003 as a prerequisite to receiving FY 2004 Homeland Security grant funds.
DHS guidance for this 2003 Assessment required a formal evaluation plan and
other requirements to “monitor progress, compile key management
information, track trends, and keep the strategy on track.” In addition, the
2003 Assessment guidance specified that the State’s new or updated Strategy
should include broad-based goals with objectives that were “specific,
measurable, achievable, results-oriented, and time limited.”

As required by FEMA, the State Administrative Agency developed a Three-
Year Domestic Preparedness Strategy in 2001 and an updated Strategy in
2003. Both Strategies included broad-based strategic goals and implementing
objectives, which were approved by FEMA. The initial Three-Year Strategy
stated that the State of Ohio’s primary goal was to “provide funding to meet
the identified equipment needs of the State’s jurisdictions and first
responders.” However, the State Administrative Agency did not develop
measurable objectives for this goal or establish a mechanism to track and
objectively measure the impact of the equipment grant program on first
responder capabilities. The other goals and objectives in the Three-Year
Strategy related primarily to activities that would be undertaken by the State
Administrative Agency or other State agencies and departments. While
important and necessary for a comprehensive assessment of statewide
activities, funding to State agencies and departments was limited to 20 % of
grant funds awarded each year. For FY 2002 and FY 2003 (Parts I and II), the
State Administrative Agency was required to provide 80 %of the equipment
grant funds to local units of government. For FY 2004, the 80 % distribution
requirement was applied to the full amount of the grant.


   The State of Ohio’s Management of State Homeland Security Grants

            Awarded During Fiscal Years 2002 through 2004 


                               Page 12

     The State Administrative Agency added some measurable equipment-related
     objectives to its 2003 Strategy update, but did not collect data from the
     counties to measure progress in achieving these objectives. Starting with the
     FY 2004 grant, FEMA provided the Biannual Strategy Implementation Report
     program as a mechanism to link equipment and other types of purchases to
     State goals and objectives. State Administrative Agency and county officials
     told us that this program had little applicability to their management,
     oversight, or evaluation of grant expenditures at the county level.

     State Administrative Agency officials gave the following reasons for not
     developing measurable strategic objectives and collecting the information
     needed to assess the impact of the equipment grant program at the county (or
     subgrantee) level.

        •	 The 2001 and 2003 Needs Assessments were flawed and did not
           provide a clearly defined, realistic snapshot of existing capabilities and
           the equipment gaps at the county (subgrantee) level,

        •	 The State Administrative Agency did not assign the resources
           necessary to address the complexities involved in defining and
           measuring preparedness at the county level, and

        •	 State Administrative Agency officials did not believe FEMA required
           the development of performance measures, nor did they feel that
           federal grant officials placed much emphasis on doing so.

     State Administrative Agency officials said they have struggled, and continue
     to struggle, with how to identify applicable performance-based measurements
     and standards. In addition, Agency officials said that the metrics provided in
     the FEMA Biannual Strategy Implementation Report, while possibly helpful
     to FEMA, did not provide the State with the data it needed to measure
     subgrantee performance or assess the impact of the equipment grant programs.

Conclusions
     Without measurable goals and objectives and a mechanism to collect
     objective, results-oriented data from its 88 counties, the State Administrative
     Agency did not have a basis to evaluate the effect of grant fund expenditures
     on the response capabilities of first responders to terrorist attacks involving
     weapons of mass destruction. Also, the State Administrative Agency could
     not consider progress toward goals and objectives in future funding and
     management decisions.




        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 13

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the Ohio Emergency Management Agency to:

        1.	 Develop strategic goals and objectives applicable to first responder
            capabilities that are specific, measurable, achievable, results-oriented,
            and time-limited,

        2.	 Incorporate the goals and objectives into a statewide system for
            measuring local jurisdiction first responder progress toward achieving
            the goals and objectives, and

        3.	 Use the progress achieved as a basis for future first responder grant
            funding decisions.

Management Comments
     We received verbal comments on the recommendations from FEMA officials.
     The federal officials concurred with the first and second recommendations and
     concurred in concept with the third recommendation. The officials said that
     FEMA does not intend to specify to the grantee how they should evaluate
     proposals for award, only that there should be an evaluation method by which
     all aspects of the grantee as an entity and its needs are taken into
     consideration.

     The State Administrative Agency officials concurred with the
     recommendations. In their written comments, the State officials said that the
     August 2007 Ohio Homeland Security Strategic Plan was developed using a
     large group of stakeholders, including local first responders, state officials,
     and private sector representatives. The officials said the Plan includes goals
     and objectives that are specific, measurable, achievable, results-oriented, and
     time limited. The written comments state that the Ohio Homeland Security
     Division is working with an independent contractor to develop a system for
     tracking progress toward achievement of goals and objectives. The State
     Administrative Agency officials said that these actions will provide the basis
     for the investment justifications and future grant applications.

Auditor’s Analysis
     The initiatives cited by the State Administrative Agency indicate that the State
     officials are aggressively pursuing important improvements in their
     management of Homeland Security Grant Programs. If effectively
     implemented, the planned initiatives should provide the groundwork for the


        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 14

           state, regional, and local officials to establish and use meaningful, specific,
           measurable goals and objectives.

           The recommendations should remain open until FEMA considers the
           established goals and objectives as meeting the criteria in Code of Federal
           Regulations Title 44 § 13.40. FEMA should determine if the goals and
           objectives are being used in a statewide system for local jurisdictions to
           measure progress toward achieving the goals and objectives. The progress
           achieved toward the goals and objectives should be used by the State
           Administrative Agency as a basis for future first responder grant funding
           decisions.

           The Administrator, Federal Emergency Management Agency, needs to
           provide within 90 days corrective actions for the recommendations and a plan
           to implement the actions.

Adequate Financial Controls Not Established
           The State Administrative Agency did not properly account for grant
           disbursements or submit accurate Financial Status Reports to DHS. The
           Agency was unable to periodically reconcile drawdowns from the federal
           account with expenditures recorded in the State’s accounting system. The
           cash outlays reported in the State Administrative Agency’s Financial Status
           Reports could not be relied on by FEMA as an indicator of the State’s actual
           expenditures. As a result, the State was not in compliance with federal grant
           accounting requirements.

           Code of Federal Regulations Title 44 § 13.20 and the U.S. Department of
           Justice Financial Guide (which were applicable to the FY 2002 through
           FY 2004 Homeland Security Grant Programs), required all grantees to
           establish and maintain accounting systems and financial records to accurately
           account for the grant funds awarded. The criteria required grantees to:

              •	 Prepare and submit quarterly Financial Status Reports to DHS that
                 identified the actual grant expenditures and unliquidated obligations as
                 recorded in the grantees’ accounting system,

              •	 Match actual expenditures with amounts budgeted for each grant or
                 subgrant, and

              •	 Support accounting records with source documentation, such as
                 cancelled checks, paid bills, subgrant award documentation, etc.

           Code of Federal Regulations Title 44 § 13.43, Enforcement, provides
           remedies for non-compliance if a grantee materially fails to comply with any

              The State of Ohio’s Management of State Homeland Security Grants

                       Awarded During Fiscal Years 2002 through 2004 


                                          Page 15

term of an award. The remedies include (1) temporarily withholding cash
payments pending correction of the deficiency, (2) disallowing all or part of
the cost of the activity not in compliance, and (3) withholding further awards
for the program.

The following conditions contributed to the State Administrative Agency’s
inability to accurately account for the expenditure of Homeland Security
Grant Program funds.

   •	 When reporting cash outlays in the quarterly Financial Status Reports,
      the State Administrative Agency did not always use actual
      expenditures as recorded in the State’s accounting system. According
      to Agency officials, the amounts reported were sometimes based upon
      the drawdowns from the federal account. In an August 2004 report,
      the DHS OIG stated that the State Administrative Agency used a
      similar process when it prepared Financial Status Reports for FEMA
      disaster assistance grants. At that time, FEMA concurred with the
      finding and said it would collaborate with the Agency to resolve the
      cited deficiencies.

   •	 The State accounting system showed that the total grant expenditures
      for the FY 2004 State Homeland Security Grant Program exceeded the
      amount the State Administrative Agency reported on the Financial
      Status Reports by about $11.4 million. As of June 30, 2006, the
      Agency had not been able to reconcile this difference.

   •	 The State Administrative Agency initiated payments to subgrantees
      based upon the subgrantees “Request for Cash” without adequate
      supporting documentation. Specifically, throughout the FY 2002
      through FY 2004 grant periods, the Agency did not require
      subgrantees to submit invoices or other documentation to support their
      requests for reimbursement.

   •	 The State Administrative Agency’s fiscal branch sometimes
      misclassified or made errors in recording subgrantee expenditures. For
      example, even though the purpose of an award was changed and
      approved by FEMA (e.g., funds awarded to a county for training were
      reallocated to equipment), the fiscal branch recorded the expenditure
      as originally allocated.

The State Administrative Agency did not have documentation to fully explain
the reasons for the above four financial management issues. For example, one
official said that the Agency’s normal process was to use drawdown
information obtained from the federal account to report grant disbursements in
the quarterly Financial Status Reports to FEMA. Another official

   The State of Ohio’s Management of State Homeland Security Grants

            Awarded During Fiscal Years 2002 through 2004 


                               Page 16

     acknowledged that the Agency used drawdown information for some
     unknown period of time but said that the normal process was to use the State’s
     accounting system to report disbursements. However, from the documents
     provided to us by the Agency, it was not clear what information was used to
     complete the Financial Status Reports during the FY 2002 through FY 2004
     grant periods. Our analysis showed that the disbursements reported in 27 of
     42 Financial Status Reports did not agree with the expenditures recorded in
     the accounting system. State Administrative Agency officials acknowledged
     that they had not periodically reconciled or matched actual disbursements
     recorded in the State’s accounting system with grant funds drawn down from
     the federal account. The lack of periodic reconciliations contributed to the
     financial reporting problems observed during our audit.

     A State Administrative Agency official told us that the process of paying
     grantees without the required supporting documentation (e.g., paid bills or
     invoices) started early in the Homeland Security Grant Program when
     subgrantees could request cash up to 120 days in advance of actual
     expenditures. The State Administrative Agency did not require grantees to
     submit supporting documentation with requests for cash. This process
     continued even after the Agency stopped the practice of allowing advance
     payments. As a result, the Agency did not have supporting documentation for
     the payments made to subgrantees.

Conclusions
     The State Administrative Agency did not ensure that grant disbursements
     were properly accounted for and supported in accordance with federal
     requirements, or have documentation to support Requests for Cash made by
     subgrantees. The State Administrative Agency also did not ensure that the
     cash outlays reported on the State’s quarterly Financial Status Reports were
     accurate.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the Ohio Emergency Management Agency to:

        1.	 Ensure compliance with federal grant disbursement documentation and
            accounting requirements,

        2.	 Reconcile the $11.4 million difference between the FY 2004 grant
            program disbursements reported in the State’s accounting system and
            the quarterly Financial Status Reports sent to DHS, and



        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 17

             3.	 Revise the State Administrative Agency’s annual supplemental grant
                 guidance to require subgrantees to submit appropriate documentation
                 to support Requests for Cash.

     Management Comments
          We received verbal concurrences on the recommendations from FEMA
          officials. The State Administrative Agency officials also concurred with the
          recommendations. In their written comments, the State officials said they
          now have a system in place to prepare Financial Status Reports using the
          state’s accounting records. The officials said the system will ensure
          compliance with federal grant disbursement documentation and accounting
          requirements. The written comments also stated that the issues related to the
          FY 2004 grant would be resolved by March 31, 2008. According to the State
          Administrative Agency, it now requires subgrantees to submit invoices or
          documentation to support cash requests. Effective November 2006, cash
          requests are refused unless necessary supporting documentation is provided.

     Auditor’s Analysis
          If properly implemented, the actions cited above would adequately address the
          recommendations.

          The Administrator, Federal Emergency Management Agency, needs to
          provide within 90 days corrective actions for the recommendations and a plan
          to implement the actions.

Subgrantee Performance Not Adequately Monitored
          The State Administrative Agency did not adequately monitor the activities of
          subgrantees. The Agency did not require local jurisdictions to report on
          progress achieved in improving their capability to respond to terrorist attacks.
          The Agency also did not conduct periodic site visits to observe the progress
          made by the subgrantees. Accordingly, the Agency was not aware of the
          extent that its subgrantees adhered to federal requirements and grant
          guidelines or achieved DHS and Agency programmatic goals and objectives.
          The lack of a periodic, on-site, subgrantee monitoring program prevented the
          Agency from obtaining first-hand knowledge of specific subgrantee
          administrative problems and issues.

          Code of Federal Regulations Title 44 § 13.40, Monitoring and reporting
          program performance, establishes requirements for monitoring grant program
          performance. These regulations require grantees to (1) provide day-to-day
          management of all grant and subgrant supported activities and (2) assure that
          subgrantees comply with applicable federal requirements and achieve program

             The State of Ohio’s Management of State Homeland Security Grants

                      Awarded During Fiscal Years 2002 through 2004 


                                         Page 18

performance goals. The regulations also specify that the grantees’ monitoring
programs must cover each program, function, or activity, and require
subgrantees to adhere to the same performance monitoring and reporting
standards as required of grantees. The Department of Justice Financial Guide
(which serves as a primary reference manual to assist grant recipients in
fulfilling their fiduciary responsibilities) also applied in this situation. It
stated that grant recipients “should be familiar with, and periodically monitor,
their subrecipients’ financial operations, records, system, and procedures.” In
addition, recipients should “pay particular attention to sub-recipients’
maintenance of current financial data.”

During the FY 2002 through FY 2004 grant periods, the State Administrative
Agency had from one to three grant coordinators (the number changed from
time to time) to oversee $142 million in grant expenditures spread among 88
counties, several state agencies, and other subgrantees. Because the State
Administrative Agency did not require subgrantees to report progress in
achieving required capabilities and on-site visits were not made, the grant
coordinators focused their time on reviewing Detailed Budget Worksheets and
Requests for Cash (essentially desk audits) to ensure that subgrantees were
purchasing approved equipment and services. The grant coordinators were
able to identify questionable purchases and either disallow the expenditures or
contact FEMA for guidance. However, during the FY 2002 through FY 2004
grant programs, the State Administrative Agency did not require subgrantees
to submit invoices with their Requests for Cash. Therefore, the grant
coordinators had no direct evidence to support the subgrantees’ requests for
cash or to document what, when, or even if particular pieces of equipment or
services were purchased with grant funds. During this period of time, State
Administrative Agency grant coordinators told us that time was not available
to:

   •	 Review equipment or other types of purchases to determine if the
      equipment purchases were addressing the needs established in the
      State Administrative Agency’s preparedness strategies, or

   •	 Conduct periodic, on-site monitoring visits at counties and other
      subgrantees to review programmatic and financial operations and
      assess the degree of progress and compliance with federal
      requirements and grant guidelines.

On-site monitoring visits would have provided the State Administrative
Agency first-hand knowledge of specific subgrantee activities. For example,
one county we visited was not complying with the federal and state guidance
for administering the first responder grant programs. State Administrative
Agency officials accidentally discovered problems during a June 2004 on-site
visit to meet a new Acting Director of the county’s Emergency Management

   The State of Ohio’s Management of State Homeland Security Grants

            Awarded During Fiscal Years 2002 through 2004 


                               Page 19

Agency. The Agency found that the county did not maintain grant-related
records and documents during the FY 2002 and FY 2003 grant years. The
county also had (1) requested cash from the State Administrative Agency and
held the cash for long periods of time before purchasing grant related
equipment and (2) purchased equipment not authorized by FEMA or approved
by the county’s Terrorism Advisory Committee. The State Administrative
Agency took actions to freeze the county’s accounts and require the county to
reimburse the State for any funds unspent or used to purchase equipment not
authorized by FEMA.

In this county, the State Administrative Agency also worked closely with a
new County Emergency Management Agency Director and Deputy Director
to reconstruct the County’s grant transactions and establish an inventory of
equipment purchased with grant funds. When this process was finished,
unobligated funds previously returned to the State were made available to the
County once again for grant-eligible expenditures. Although we commend
the State Administrative Agency for taking immediate action to resolve the
problems, the problems had been occurring for several years without the
Agency’s knowledge. A more formalized Agency monitoring program
including periodic on-site visits might have prevented or reduced the severity
of this problem.

In addition, because on-site monitoring visits were not conducted, the State
Administrative Agency had not detected the following problems identified
during our visits to selected counties:

   •	 Sole source procurements did not follow prescribed federal guidelines
      (see finding on page 23),

   •	 Personal property controls and accountability systems were not
      maintained for property purchased with grant funds (see finding on
      page 26),

   •	 General use vehicles were improperly used for personal commuting
      (see finding on page 28), and

   •	 Grant funds were inappropriately commingled (see finding on 

      page 31). 


Officials said that they were not prepared totally to handle the large increase
in grant funds that occurred following the September 11, 2001, terrorist
attacks on the World Trade Center. At that time, one person was assigned to
monitor the grant program. Yet even with additional staff, officials said that
the workload resulted in little time to do more than the required desk audits.
The State Administrative Agency had the option to use Homeland Security

   The State of Ohio’s Management of State Homeland Security Grants

            Awarded During Fiscal Years 2002 through 2004 


                               Page 20

     Grant Program administrative funds to hire additional personnel but put its
     priorities on providing as much grant money as possible to local jurisdictions
     and state agencies.

Conclusions
     The State Administrative Agency did not provide sufficient oversight
     resources, nor establish a well-documented monitoring program that included
     periodic site visits to monitor the activities of subgrantees. The Agency did
     not monitor programmatic and fiscal matters, nor did it monitor the
     subgrantees’ progress in meeting the State’s goals and objectives for
     responding to terrorist attacks involving weapons of mass destruction.
     Although the Agency took immediate action to resolve problems of which it
     became aware in one county, it did not perform on-site visits to other counties
     to ensure that all its guidance and directives were being followed by all
     subgrantees.


Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the Ohio Emergency Management Agency to:

        1.	 Implement a monitoring program that includes periodic on-site visits
            to oversee the activities of subgrantees,

        2.	 Establish a system of regular reporting by local jurisdictions
            documenting progress toward achieving acceptable levels of
            equipment, training, and exercises for first responders, and

        3.	 Use the progress reported and the results of the site visits as factors in
            future management and funding decisions.

Management Comments
     We received verbal comments on the recommendations from FEMA officials.
     The federal officials concurred with the first and second recommendations and
     concurred in concept with the third recommendation. The officials said that
     FEMA does not intend to specify to the grantee how they should evaluate
     proposals for award, only that there should be an evaluation method into
     which all aspects of the grantee as an entity and its needs are taken into
     consideration.

     The State Administrative Agency officials concurred with all three
     recommendations. The State’s written comments said that the State

        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 21

          Administrative Agency, in conjunction with the Ohio Department of Public
          Safety Internal Auditors, developed and implemented a comprehensive
          subgrantee monitoring program in July 2006. The program includes a goal to
          conduct on-site reviews of each county on an annual basis. The written
          comments also said that the State Administrative Agency was developing a
          system to track local jurisdictions’ progress. The officials believe the action
          will help identify progress toward meeting required capabilities and future
          funding needs.

     Auditor’s Analysis
          If properly implemented, the actions cited above would be sufficient to meet
          the intent of the recommendations.

          The Administrator, Federal Emergency Management Agency, needs to
          provide within 90 days corrective actions for the recommendations and a plan
          to implement the actions.

Federal Procurement Requirements Not Followed
          The State Administrative Agency did not ensure that federal procurement
          regulations were followed for non-competitive procurements. Agency and
          subgrantee officials did not perform required cost analyses for several non-
          competitive procurements that exceeded $100,000. Also, the subgrantees did
          not notify the Agency prior to awarding non-competitive contracts. As a
          result, the Agency and its subgrantees might have paid more for equipment
          and services than was necessary and reasonable.

          Code of Federal Regulations Title 44 § 13.36, Procurement, establishes
          applicable procurement requirements for grantees and subgrantees.
          Specifically, the Regulations require that:

                 Grantees and subgrantees will use their own procurement procedures
                 which reflect applicable State and local laws and regulations, provided
                 that the procurements conform to applicable Federal law and the
                 standards identified in this section.

          With respect to non-competitive procurements (or a competitive procurement
          in which there was inadequate competition) that exceeds the $100,000
          simplified acquisition threshold, federal regulations require grantees and
          subgrantees to perform a cost analysis (or in some circumstances a price
          analysis) to determine the reasonableness of the proposed contract price. A
          cost analysis would involve a review and analysis of various cost elements
          included in the contractor’s proposed price, including specific elements of
          costs (e.g., overhead and profit). The analysis results could then be used to

             The State of Ohio’s Management of State Homeland Security Grants

                      Awarded During Fiscal Years 2002 through 2004 


                                         Page 22

     help negotiate a reasonable contract price. The federal regulations also
     require that subgrantees notify the grantee (Ohio Emergency Management
     Agency) when such non-competitive procurements are being undertaken and
     give the grantee an opportunity to review pre-award documentation, such as
     requests for proposal, independent cost estimates, etc.

     The State Administrative Agency officials and subgrantees did not adhere to
     the applicable requirements for non-competitive procurements over $100,000.
     In one example, a county awarded a sole source, fixed price contract for
     $1,360,015 to provide communications equipment for an existing
     communications tower. The county accepted the contractor’s proposed
     contract price without performing a cost analysis. Also, the county did not
     notify the Ohio Emergency Management Agency of the pending sole source
     contract action. To determine the reasonableness of the contract price, the
     County relied on the technical expertise of its communications staff and some
     informal price comparisons with other counties that had made similar
     purchases.

     In another example, the State Administrative Agency attempted a competitive
     procurement for contractor support in preparing and executing table-top, full-
     scale, and statewide terrorism exercises. When only one bid was received, the
     State Administrative Agency awarded a non-competitive contract for
     $259,220. As with the first example, no formal cost analysis was prepared to
     determine the reasonableness of the proposed contract price. The $259,220
     contract was subsequently modified by the State Administrative Agency,
     without further competition, to a contract total of approximately $3.6 million.

     The State Administrative Agency referenced the applicable Code of Federal
     Regulations in its Notice of Award and other supplemental grant guidance to
     subgrantees. However, the requirements associated with high-value
     procurements were not detailed in the guidance. State procurement personnel
     and subgrantee officials said they had not read and were unaware of the
     applicable non-competitive guidance. Accordingly, the contracts were
     awarded without the required cost analysis being performed or the advance
     notification being given to the State Administrative Agency.

Conclusions
     Non-compliance with federal requirements occurred when high-value, sole
     source contracts or contracts with inadequate competition were awarded by
     subgrantees and the State Administrative Agency. Required cost analyses
     were not performed and notifications were not given to the State
     Administrative Agency by subgrantees prior to award of the contracts. Also,
     with only one bidder, the State Administrative Agency awarded a contract
     without adequate competition that was amended from the original $259,220 to

        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 23

     $3.6 million without adequate cost or pricing data. As a result, the Agency
     and its subgrantees had no assurance that the costs paid were reasonable. In
     addition, the Agency did not have an opportunity to review pre-award
     documentation, such as requests for proposal, or independent cost estimates,
     prior to the contract award.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the Ohio Emergency Management Agency to:

        1.	 Highlight, emphasize, and transmit to applicable state agencies and
            subgrantees the federal requirements to:

                a.	 Prepare a cost analysis for non-competitive procurements that
                    are expected to exceed $100,000, and

                b.	 Notify the State Administrative Agency of any such
                    procurements and give the State the opportunity to conduct
                    pre-award reviews.

        2.	 Establish and implement procedures to ensure that grant recipients
            follow federal requirements for non-competitive procurements
            exceeding $100,000.

Management Comments
     We received verbal concurrences on the recommendations from FEMA
     officials. The State Administrative Agency officials also concurred with the
     recommendations. In their written comments, the State officials said that, in
     the future, cost analyses will be performed when high-value, sole source
     contracts, or contracts with inadequate competition are awarded. The grant
     guidance will highlight and emphasize these requirements and require that the
     subgrantees notify the State Administrative Agency prior to undertaking high-
     value, sole source procurements.

Auditor’s Analysis
     If properly implemented, the actions cited above would be sufficient to meet
     the intent of the recommendations.

     The Administrator, Federal Emergency Management Agency, needs to
     provide within 90 days corrective actions for the recommendations and a plan
     to implement the actions.


        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 24

Personal Property Controls and Accountability Not Maintained
           Four of the six counties visited by our audit team had not maintained effective
           control and accountability systems to (1) safeguard personal property
           procured with first responder grant funds or (2) ensure that the property was
           used solely for authorized purposes. The other two counties developed
           control and accountability systems several years after the property was
           purchased. The condition existed because the State Administrative Agency
           did not provide clear guidance to subgrantees. The Agency also did not
           periodically visit subgrantees to verify that required safeguards were in place
           and that procured property was being used for authorized purposes.
           Accordingly, there was no assurance that millions of dollars of personal
           property procured with federal grant funds was adequately safeguarded or
           used for authorized purposes.

           Code of Federal Regulations Title 44 § 13.20 Standards for financial
           management systems requires that effective control and accountability be
           maintained for all personal property procured with federal funds. Grantees
           and subgrantees must adequately safeguard all such property and assure that it
           is used solely for authorized purposes. Under Title 44 § 13.3, Definitions,
           equipment and supplies are considered to be personal property.

           In addition, Code of Federal Regulations Title 44 § 13.32 Equipment requires
           that property records be maintained, including the property’s cost, description,
           identification number, location, use, condition, and ultimate disposition. The
           Regulations also require that a control system be developed to ensure
           adequate safeguards to prevent loss, damage, or theft of the property. Under
           Title 44 § 13.3, Definitions, equipment means tangible, non-expendable,
           personal property having a useful life of more than 1 year and an acquisition
           cost of $5,000 or more per unit. The federal regulations were included by
           reference in the State Administrative Agency’s Grant Agreements with
           subgrantees.

           While four of the six counties visited had developed control and
           accountability systems, the system documentation was incomplete or missing
           key pieces of information. It was necessary for us to summarize Requests for
           Cash (documents used by the counties to seek reimbursement from the State
           Administrative Agency) or trace purchases to original invoices to verify the
           accuracy of the property records. In some cases, we had to rely on the
           recollections of county personnel to locate the equipment sample used for the
           audit.

           The two other counties we visited had established control and accountability
           systems and the system documentation was reasonably complete. However,
           in one county, a new county Emergency Management Director had to

              The State of Ohio’s Management of State Homeland Security Grants

                       Awarded During Fiscal Years 2002 through 2004 


                                          Page 25

     completely reconstruct the previous grant history to determine what had been
     purchased, where it was located, what it cost, and how it fit into the county’s
     approach to using first responder grant funds. According to State
     Administrative Agency and county officials, the previous Director
     mismanaged the county’s grant program and had not documented how the
     grant funds were used. In the other county, records of equipment purchases
     were allowed to accumulate for several years before property records were
     compiled. County personnel stated that previously there were problems in
     hiring competent administrative personnel.

     Many of the equipment items, procured with the grant funds, exceeded the
     federal equipment thresholds of costing at least $5,000 with a life of more
     than 1 year. Many of the items, while not exceeding the thresholds, cost
     several thousand dollars and were easily portable.

     Grant agreements and other supporting documents between the State
     Administrative Agency and its subgrantees contained general references to the
     federal safeguarding and accountability requirements for personal property.
     However, subgrantee officials we interviewed said they had not read the
     regulations and were not aware of the requirements. Although the State
     provided supplemental guidance to subgrantees that identified the federal
     requirements, the guidance changed from year-to-year and did not include all
     the requirements. In addition, the State Administrative Agency did not
     conduct on-site visits to verify that required safeguards were in place and that
     procured property was being used for authorized purposes.

Conclusions
     Ohio’s subgrantees we visited did not maintain federally required safeguards
     and accountability controls for personal property procured with the first
     responder grant funds. Without satisfactory controls, the State Administrative
     Agency and its subgrantees had no way of ensuring that the property was
     adequately safeguarded or used solely for authorized purposes.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the Ohio Emergency Management Agency to:

        1.	 Develop guidance for subgrantees that clarifies the requirements for
            property controls and accountability of personal property purchased
            with first responder grant funds,




        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 26

              2.	 Direct subgrantees to maintain the required control and accountability
                  systems for:

                  a.	 Equipment that meets the $5,000 and 1-year life thresholds, and

                  b.	 All other personal property with special emphasis on sensitive and
                      portable property, and

              3.	 Verify the adequacy of subgrantee control and accountability systems
                  through on-site monitoring.

     Management Comments
           We received verbal concurrences on the recommendations from FEMA
           officials. The State Administrative Agency officials also concurred with all
           the recommendations. In their written comments, the State officials said that
           the property control and accountability requirements are being included in
           various grant related guidance and in presentations being given to a variety of
           state and local partners. The officials said that personal property controls and
           accountability have been included in semi-annual emergency management
           directors conferences and at the last two annual County Auditor’ Conferences.
           In addition, the officials said that during on-site monitoring visits they will
           verify that the counties are in compliance with personal property controls and
           accountability requirements.

     Auditor’s Analysis
           If properly implemented, the actions cited above would be sufficient to meet
           the intent of the recommendations.

           The Administrator, Federal Emergency Management Agency, needs to
           provide within 90 days corrective actions for the recommendations and a plan
           to implement the actions.

Vehicles Not Used for Intended Purposes
           During our visits to six counties, we found three instances where counties had
           used vehicles for general purposes instead of purposes justified to the State
           Administrative Agency. While two of the counties stopped using the vehicles
           for general purposes after receiving guidance from the State Administrative
           Agency, one county was still doing so. The vehicle, which cost $23,190, was
           used for daily commuting. As a result, the vehicle was not being used for the
           purpose justified by the county and might not be available during an
           emergency. Accordingly, we consider the $23,190 to be a questioned cost.


              The State of Ohio’s Management of State Homeland Security Grants

                       Awarded During Fiscal Years 2002 through 2004 


                                          Page 27

    DHS Program Guidelines for all grant programs included in the audit provide
    that equipment purchases are limited to items needed to respond to incidents
    of terrorism. The Guidelines specifically state that the purchase of general use
    vehicles is not authorized. A FEMA official advised us that using a tow
    vehicle for personal commuting between home and work is clearly a violation
    of the grant guidelines. Also, in its supplemental guidance to subgrantees for
    the FY 2002, FY 2003, and FY 2004 first responder grant programs, the State
    Administrative Agency made specific reference to the prohibition on
    purchasing general use vehicles with grant funds.

    We identified a vehicle that was not being used as originally intended. The
    vehicle, costing $23,190, was purchased with FY 2004 grant program funds.
    The four-wheel drive vehicle was justified to the State Administrative Agency
    as a “prime mover for equipment trailers.” However, at the time of our visit,
    the vehicle was being used to commute between home and work by the
    Director of the County Emergency Management Agency. The Director, who
    is also the County’s Hazardous Materials Team Leader, initially said the
    vehicle was being used as intended. However, after we observed that the
    vehicle did not have a trailer hitch, the Director said that she was on call
    24 hours a day, 7 days a week and needed the vehicle to respond to
    emergencies.

    Similar incidents occurred in two other counties visited. However, county
    officials stopped using the vehicles for general use after receiving guidance
    from the State Administrative Agency grant personnel.

Conclusions
    The State Administrative Agency relied on subgrantees to appropriately report
    and classify equipment purchases. If the subgrantee used equipment for
    purposes other than was originally intended, such as a prime mover vehicle
    being used for general purposes, the Agency generally had no way of
    knowing. More importantly, if the County Emergency Management Director
    was using a prime mover vehicle for general purposes, there was a potential
    that the vehicle would not be immediately available to haul a trailer in time of
    an emergency, especially since the vehicle did not have a trailer hitch. This
    could delay first responders and their access to the equipment needed for a
    potentially hazardous situation. Because the vehicle was not being used as
    intended, we consider the $23,190 cost of the vehicle to be a questioned cost.




       The State of Ohio’s Management of State Homeland Security Grants

                Awarded During Fiscal Years 2002 through 2004 


                                   Page 28

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the Ohio Emergency Management Agency to:

        1. Verify the County’s need for the vehicle and direct the County to:

              a.	 Terminate the use of the prime mover vehicle for personal
                  commuting;

              b.	 Install a trailer hitch if the county is to keep the vehicle; or

              c.	 If appropriate, disallow the $23,190 claimed for the cost of the
                  vehicle; and

        2.	 Clearly communicate to subgrantees in the future that vehicles and
            other equipment purchased with grant funds must be used for the
            purposes intended and not for general purposes, such as daily
            commuting.

Management Comments
     We received verbal concurrences on the recommendations from FEMA
     officials. The State Administrative Agency officials also concurred with the
     recommendations. In their written comments, the State officials said that the
     State Administrative Agency had verified the county’s need for the vehicle
     and that it was no longer being used for daily commuting. The officials also
     said a hitch had been installed on the vehicle. In addition, the officials said
     they will reiterate to subgrantees that vehicles must be used for the purpose
     described in the detailed budget worksheet or the funds must be reimbursed.

Auditor’s Analysis
     The actions cited above are sufficient to meet the intent of the 

     recommendations. 


     The Administrator, Federal Emergency Management Agency, needs to
     provide within 90 days corrective actions for the recommendations and a plan
     to implement the actions.




        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 29

Grant Funds Inappropriately Commingled
          One county visited had commingled the FY 2002, FY 2003, and FY 2004 first
          responder funds with funds from other federal agency grant programs.
          Although the non-compliance was reported in a July 2005 financial audit
          report, the county had not taken corrective action as of February 2007. As a
          result, the State Administrative Agency could not ensure that the first
          responder grant funds were being appropriately accounted for or used
          according to the grant requirements.

          Code of Federal Regulations Title 44 § 13.20, Standards for financial
          management systems, requires that the fiscal control and accounting
          procedures of the State and its subgrantees must be sufficient to (1) permit the
          preparation of reports required by federal regulations and statutes authorizing
          the grant and (2) establish that grant funds have not been used in violation of
          applicable statutes.

          The Department of Justice Financial Guide (which is the primary reference for
          financial management and grants administration for direct grant recipients and
          sub-recipients) requires that:

                 …the accounting systems of all recipients and sub-recipients must
                 ensure that agency funds are not commingled with funds from other
                 federal agencies. Each award must be accounted for separately.
                 Recipients and sub-recipients are prohibited from commingling funds
                 on either a program-by-program or project-by-project basis.

          The Guide further states that direct grant recipients should be familiar with
          and periodically monitor sub-recipients’ financial operations, records, system,
          and procedures, paying particular attention to the maintenance of current
          financial data.

          A July 29, 2005, Ohio Auditor of State financial audit of a County Emergency
          Management Agency that we visited found that the County Auditor (who was
          the fiscal agent for the Agency) was not properly managing federal grants,
          including Homeland Security grants. The audit report stated that:

                 Several federal grants were placed within the same fund(s) without
                 sub-accounts to track the activity of each individual grant. In addition,
                 the grants were posted to the accounting system without any
                 considerations as to the purpose of the funds (i.e., general operating
                 funds or special purpose funds.)

          The report labeled this situation “a reportable condition” and “a material
          weakness” and said that, as the fiscal agent for the County Emergency

             The State of Ohio’s Management of State Homeland Security Grants

                      Awarded During Fiscal Years 2002 through 2004 


                                         Page 30

     Management Agency, the County Auditor should separate funds, or create
     sub-accounts within each fund, so that the grant revenue and expenditures can
     be related to the grant purpose, and a grant balance would be readily available.

     Even though the July 2005 state audit reported that the county was
     inappropriately commingling grant funds, the problem had not been corrected
     as of February 2007, when we visited the county. The county’s financial
     system continued to lack sub-accounts for each individual grant, making it
     impossible for us to independently examine grant activity and determine grant
     balances. When we asked about this situation, the County Auditor said that
     she did not consider her office to be the fiscal agent for the County
     Emergency Management Agency. Therefore, she did not separate sub-
     accounts as recommended by the Ohio Auditor of State. The County Auditor
     said it was the responsibility of the County Emergency Management Agency
     to keep track of grant expenditures and balances. However, for the FY 2002,
     FY 2003, and FY 2004 grant periods, the County Emergency Management
     Agency did not always accurately track grant funds received from the State.

Conclusions
     Because the county was commingling grant funds, the State Administrative
     Agency had no assurance that the county in question was appropriately
     accounting for grant funds or that the funds were being used in accordance
     with grant requirements.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the Ohio Emergency Management Agency to:

        1.	 Suspend further grant expenditures until the County satisfies the State
            Administrative Agency that it has complied with federal accounting
            requirements and has established separate accounts for individual grant
            program fund activities, and

        2.	 Require the State Administrative Agency to review subgrantee finance
            and accounting practices to ensure that first responder grant funds are
            not commingled with awards from other grant programs.

Management Comments
     We received verbal concurrences on the recommendations from FEMA
     officials. The State Administrative Agency officials also concurred with the
     recommendations. In their written comments, the State officials said that the
     subgrantee county has been told to put all homeland security funds into
     separate accounts. The officials said a follow-up visit will be conducted to

        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 31

     ensure that the action has been taken. In addition, a bulletin will be sent out to
     all counties addressing this topic and funds accounting will be included in
     future on-site monitoring visits. If commingling is found, the officials said
     funds will be suspended until corrective action is taken.

Auditor’s Analysis
     If properly implemented, the actions cited above would be sufficient to meet
     the intent of the recommendations.

     The Administrator, Federal Emergency Management Agency, needs to
     provide within 90 days corrective actions for the recommendations and a plan
     to implement the actions.




        The State of Ohio’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2002 through 2004 


                                    Page 32

Appendix A
Objectives, Scope, and Methodology

                    The objectives of the audit were to determine whether the State of Ohio
                    effectively and efficiently implemented first responder grant programs,
                    achieved the goals of the programs, and spent funds awarded according to
                    grant requirements. The goal of the audit was to identify problems and
                    solutions that would help the State of Ohio prevent and respond to terrorist
                    attacks. Toward this goal, we considered the following nine “researchable”
                    questions, from which we identified the reportable conditions included in the
                    findings section of this report.

                        •	 Did the State use reasonable methodologies for assessing threat,
                           vulnerability, capability, and prioritized needs?

                        •	 Did the State appropriately allocate funding based on those threats,
                           vulnerabilities, capabilities, and priorities?

                        •	 Has the State developed and implemented plans to measure
                           improvements in preparedness as a result of the grants and have such
                           measurement efforts been effective?

                        •	 Are the State’s procurement methodologies (centralized, local, or
                           combination) reasonable and in conformance with their homeland
                           security strategies?

                        •	 Did the State’s Administrative Agency have procedures in place to
                           monitor the funds and activities at the local level to ensure that grant
                           funds are spent according to grant requirements and State-established
                           priorities? Have these monitoring procedures been implemented and
                           are they effective?

                        •	 Did the State Administrative Agency comply with cash management
                           requirements and DHS’ financial and status reporting requirements for
                           the grant programs and did local jurisdictions spend grant funds
                           advanced by the State Administrative Agency in a timely manner and,
                           if not, what caused the delays?

                        •	 Were grant funds used according to grant requirements and State-
                           established priorities?

                        •	 Was the time it took the State Administrative Agency to get
                           funds/equipment to first responders (from the time the
                           funds/equipment were available to the State until they were
                           disbursed/provided to the jurisdiction) reasonable (auditor judgment),
                           and if not, what caused the delays?




                        The State of Ohio’s Management of State Homeland Security Grants

                                 Awarded During Fiscal Years 2002 through 2004 


                                                    Page 33

Appendix A
Objectives, Scope, and Methodology
                        •	 Are there best practices that can be identified and shared with other
                           States and DHS?

                    The scope of the audit included the following four grant programs. These
                    programs are described in the Background section of this report.

                        •	   FY 2002 State Domestic Preparedness Program
                        •	   FY 2003 State Homeland Security Grant Program -- Part I
                        •	   FY 2003 State Homeland Security Grant Program – Part II
                        •	   FY 2004 Homeland Security Grant Program

                    The audit methodology included work at DHS Headquarters, the State of
                    Ohio’s offices responsible for the management of the grants, and various
                    subgrantee locations. The subgrantee locations visited included six counties
                    (Auglaize, Franklin, Hocking, Jefferson, Montgomery, and Scioto) and 21
                    first responder organizations within those counties. We also visited two other
                    organizations that received subgrants from the State Administrative Agency
                    (the Ohio Department of Natural Resources and the Ohio Association of
                    Chiefs of Police).

                    The purposes of the visits were to obtain an understanding of the four grant
                    programs and to assess how well the programs were being managed. Our
                    audit considered DHS and State Administrative Agency policies and
                    procedures, as well as the applicable federal requirements. We reviewed
                    documentation received from DHS as well as from the State Administrative
                    Agency offices and the subgrantees. In each of the locations visited, we
                    interviewed responsible officials, reviewed documentation supporting the
                    State Administrative Agency and subgrantee management of the awarded
                    grant funds, and physically inspected some of the equipment procured with
                    the grant funds. The cutoff date related to the transactions and records
                    reviewed was June 30, 2006. The fieldwork for the audit was conducted
                    between November 2006 and June 2007.

                    The audit of the State of Ohio was conducted in accordance with Government
                    Auditing Standards as prescribed by the Comptroller General of the United
                    States (Yellow Book-2003 Revision). Although this audit included a review
                    of costs claimed, we did not perform a financial audit of those costs.
                    Accordingly, we do not express an opinion on the State of Ohio’s financial
                    statements or the funds claimed in the Financial Status Reports submitted to
                    DHS. If we had performed additional procedures or conducted an audit of the
                    financial statements in accordance with generally accepted auditing standards,
                    other matters might have come to our attention that would have been reported.
                    This report relates only to the programs specified. The report does not extend
                    to any financial statements of the State of Ohio. The Department of
                    Homeland Security, Office of Inspector General is reporting the results of the
                    audit to appropriate DHS officials.

                        The State of Ohio’s Management of State Homeland Security Grants

                                 Awarded During Fiscal Years 2002 through 2004 


                                                    Page 34
Appendix B
Organization Chart




                                         August 2007




                     The State of Ohio’s Management of State Homeland Security Grants
                              Awarded During Fiscal Years 2002 through 2004 


                                                 Page 35

Appendix C
State of Ohio Comments




                         The State of Ohio’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                     Page 36

Appendix C
State of Ohio Comments




                         The State of Ohio’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                     Page 37

Appendix C
State of Ohio Comments




                         The State of Ohio’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                     Page 38

Appendix C
State of Ohio Comments




                         The State of Ohio’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                     Page 39

Appendix C
State of Ohio Comments




                         The State of Ohio’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                     Page 40

Appendix C
State of Ohio Comments




                         The State of Ohio’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                     Page 41

Appendix D
Report Distribution



                      Department of Homeland Security

                         Secretary 

                         Deputy Secretary 

                         Chief of Staff 

                         Deputy Chief of Staff 

                         General Counsel 

                         Executive Secretary 

                         Director, GAO/OIG Liaison Office 

                         Assistant Secretary for Office of Policy 

                         Assistant Secretary for Office of Public Affairs 

                         Assistant Secretary for Office of Legislative Affairs 


                      Federal Emergency Management Agency

                         Administrator 

                         Assistant Administrator, Grant Programs Directorate 

                         Deputy Administrator, National Preparedness Directorate 

                         Federal Emergency Management Agency Audit Liaison 

                         Grant Programs Directorate Audit Liaison 

                         National Preparedness Directorate Audit Liaison 


                      Office of Management and Budget

                         Homeland Bureau Chief

                         DHS OIG Budget Examiner 


                      Congress

                         Congressional Oversight and Appropriations Committee, as appropriate




                         The State of Ohio’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                     Page 42

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG
web site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building
           410, Washington, DC 20528.
